No. _______

In the
Supreme Court of the United States

Edward Rodriguez,
Petitioner,
v.
Timothy Filson, et al.
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Emma L. Smith
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Emma_Smith@fd.org
Attorneys for Petitioner
*Counsel of Record

I, Jonathan M. Kirshbaum, an attorney who is authorized to file a Petition for
Writ of Certiorari on behalf of Edward Rodriguez, hereby certify that all parties
required to be served have been served on this 22nd day of December, 2020, in
accordance with Rule 28.4(a) and 29.3, one copy of the foregoing Petition for Writ of
Certiorari, Appendix, and Motion for Leave to Proceed In Forma Pauperis by
delivering said copy, on consent of opposing counsel, through electronic mail to Erica
Berrett, Deputy Attorney General, 555 E. Washington Ave., Suite 3900, Las Vegas,
Nevada 89101.
Dated December 22, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

2

